*.*

:*r

/V

IN THE
SUPREME COURT OF THE UNITED STATES

DAVID LEE SMITH, INDIVIDUALLY AND IN HIS CAPACITY AS
REPRESENTATIVE OF THE ESTATE OF MARY JULJA HOOK„
DECEASED,
li'TS
PETITIONER

1$J
$ hX'H

VS.
UNITED STATES OF AMERICA, LNV CORPORATION,
RESPONDENTS

FILED
OCT 0 7 2021
GUPREMECQURf

ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE TENTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

David Lee Smith, Pro Se Petitioner
12071 Paul Eells Drive, #204
North Little Rock/Maumelle, Arkansas 72113
501.725.9087
davidlsl024@aol.com

US,

4

QUESTION PRESENTED FOR REVIEW
The question presented for review is whether the United States Court of
Appeals for the Tenth Circuit has so far departed from the accepted and usual
course of judicial proceedings, or sanctioned such a departure by United States
District Judge Raymond P. Moore of the United States District Court for the
District of Colorado, as to call for an exercise of the Supreme Court’s supervisory
power under Supreme Court Rule 10(a).

Specifically, the Tenth Circuit grossly

abused its inherent power (and its power under Fed. R. App. P. 38) by imposing the
sanction of appeal dismissal against appellant Hook based on its false and
defamatory finding that Hook’s appeal was frivolous. This harsh and unjustified
sanction arbitrarily deprived Hook of her right to appeal and receive meaningful
appellate review under 28 U.S.C. § 1291, and arbitrarily deprived Hook of her First
Amendment right to access to the courts and her Fifth Amendment right to due
process of law; created the appearance of extreme judicial hostility to and bias
against Hook, in violation of her Fifth Amendment due process right to a fair and
impartial appellate panel on appeal; damaged or destroyed Hook’s personal and
professional reputations, and unjustly opened her up to attorney disciplinary
proceedings by courts and bar authorities, further chilling her First Amendment
right to access to the courts and her Fifth Amendment right to due process of law;
and sanctioned the unlawful judicial taking of Hook and Smith’s home and personal
property and their substantial equity therein without due process of law or just
compensation (t.e., fair market value at the time of taking), in violation of the Due

*1

a.
Process Clause and the Takings Clause of the Fifth Amendment to the Constitution
of the United States.
LIST OF PARTIES
All parties appear in the caption of the case on the cover page.
RELATED CASES
LNV Corporation v. Mary Julia Hook et al., Civil Action No. 14-cv-00955-RM, U.S.
District Court for the District of Colorado. Final Judgment and Order of
Foreclosure and Judicial Sale entered on April 5, 2019; Order Confirming Judicial
Sale entered on March 2, 2020.
LNV Corporation v. Mary Julia Hook et al., Case No. 19-1131, U.S. Court of
Appeals for the Tenth Circuit. Order and Judgment entered on June 2, 2020, cert,
denied, 141 S. Ct. 939 (2020).
LNV Corporation v. Mary Julia Hook et al., Case No. 20-1167, U.S. Court of
Appeals for the Tenth Circuit. Order and Judgment entered on April 12, 2021.
In re David Lee Smith & Mary Julia Hook, Case No. 17-16354-TBM, U.S.
Bankruptcy Court for the District of Colorado. Order of Discharge entered on
November 8, 2017.
TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

1

STATEMENT OF THE CASE

2

REASONS FOR GRANTING THE WRIT

4

CONCLUSION

16

APPENDICES

Attached

ii

•A

V
INDEX TO APPENDICES
APPENDIX A:
Order and Judgment, LNV Corporation v. Mary Julia Hook et al., Case No.
20-1167 (10th Cir.) (April 12, 2021)
APPENDIX B:
Order Confirming Judicial Sale, LNV Corporation v. Mary Julia Hook et al.,
Civil Action No. 14-CV-00955-RM (D. Colo.) (March 2, 2020)
APPENDIX C:
Order denying petition for rehearing en banc, LNV Corporation v. Mary
Julia Hook et al, Case No. 20-1167 (10th Cir.) (July 12, 2021)
APPENDIX D:
Final Judgment and Order of Foreclosure and Judicial Sale, LNV
Corporation v. Mary Julia Hook et al., Civil Action No. 14-cv-00955-RM (D.
Colo.) (April 5, 2019)
APPENDIX E:
Order and Judgment, LNV Corporation u. Mary Julia Hook et al, Case No.
19-1131 (10th Cir.) (June 2, 2020)
APPENDIX F:
Order of Discharge, In re David Lee Smith & Mary Julia Hook, Case No.1716354-TBM (D. Colo. Chap. 7 Bankr.) (November 8, 2017)
APPENDIX G:
Constitution of the United States, Amendments 1, 5 & 7
APPENDIX H:
11U.S.C. §522
APPENDIX I:
11 U.S.C. § 524(a)(1)

iii

%

APPENDIX J:
15 U.S.C. § 1648
APPENDIX K:
26 U.S.C. §§ 6334 & 7403
APPENDIX L:

28 U.S.C. §§ 1291, 2001, 2002, 3202 & 3203
APPENDIX M:
Fed. R. App. P. 38
TABLE OF CITED AUTHORITIES
CASES:
Knick v. Township of Scott, 588 U.S.__ , 139 S. Ct. 2162,
204 L. Ed. 2d 558 (2019)..........................................................

11, 16

Stop the Beach Renourishment v. Florida Department of
Environmental Protection, 560 U.S. 702, 130 S. Ct. 2592,
177 L. Ed. 2d 184 (2010) ........................................................

10, 16

United Student Aid Funds Inc. v. Espinosa, 559 U.S. 260,
130 S. Ct. 1367, 176 L. Ed. 2d 158 (2010)............................

7,8

CONSTITUTIONAL PROVISIONS:
Constitution of the United States, Amendment 1

1, 9, 17

Constitution of the United States, Amendment 5

1, 5, 7, 8, 9, 15, 16

Constitution of the United States. Amendment 7

1, 11, 14

STATUTORY PROVISIONS:
11 U.S.C. § 522

1, 14

11 U.S.C. §524

1, 5, 7, 13, 15

iv

z
A

£

15 U.S.C. § 1648...

1, 15

26 U.S.C. § 6334

1, 14

26 U.S.C. § 7403

1, 4, 10, 12

28 U.S.C. § 1291

1, 3, 9, 16

28 U.S.C. § 1346

11

28 U.S.C. § 1254

1
1,4

28 U.S.C. §§ 2001 & 2002
28 U.S.C. §2106

17

28 U.S.C. § 2402

1
1, 4, 10, 15

28 U.S.C. §§ 3202 & 3203
FEDERAL RULES:

16

Supreme Court Rule 10(a)

2, 16

Fed. R. App. P. 38

v

l*

OPINIONS BELOW
The opinions of the lower courts have not been published. The unreported
decision of the U.S. Court of Appeals for the Tenth Circuit is reproduced in
Appendix A to this petition. The unreported decision of the U.S. District Court for
the District of Colorado is reproduced in Appendix B to this petition.
JURISDICTION
The Order and Judgment to be reviewed was entered on April 12, 2021. The
Order denying rehearing en bctnc was entered on July 12, 2021. The statutory
provision believed to confer jurisdiction on the Supreme Court to review on a writ of
certiorari the Order and Judgment in question is 28 U.S.C. § 1254(1).
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
APPENDIX G:
Constitution of the United States, Amendments 1, 5 & 7
APPENDIX H:
11 U.S.C. §522
APPENDIX I:
11 U.S.C. § 524(a)(1)
APPENDIX J:
15 U.S.C. § 1648
APPENDIX K:
26 U.S.C. §§ 6334 & 7403
APPENDIX L:
28 U.S.C. §§ 1291, 2001, 2002, 3202 & 3203
1

■

APPENDIX M:
Fed. R. App. P. 38
STATEMENT OF THE CASE
On January 8, 2020, the United States Marshal for the United States District
for the District of Colorado, purporting to act "pursuant to law" and in compliance
with United States District Judge Raymond P. Moore’s April 5, 2019 Order of
Foreclosure and Judicial Sale, offered the Denver, Colorado home of pro se
petitioner David Lee Smith (“Smith”) and his wife, Mary Julia Hook (“Hook”),1 for
sale. At the February 20, 2020 sale, the United States Marshal purportedly sold
Smith and Hook’s home and "all of the personal property located thereon" to LNV
Corporation (“LNV”) for $1,514,914.80.
On March 2, 2020, Judge Moore issued his Order Confirming Judicial Sale of
Smith and Hook’s home and personal property, stating in part that the United
States Marshal "properly conducted the sale of the real property” and that Smith
and Hook’s home "was sold to LNV Corporation, being the highest credit bid." The
March 2, 2020 Order confirmed the sale and ordered the United States Marshal to
"execute and deliver to the purchaser a deed of judicial sale conveying the property
to the purchaser." Judge Moore referenced the “record” in Civil Action No. 14-cv00955-RM and the “facts and circumstances” of that case, as well as “the Court’s
Order of Foreclosure and Judicial Sale” and the Notice of Sale & Certificate of
Purchase” as being the basis for his March 2, 2020 Order Confirming Judicial Sale.
iHook was the co-owner with Smith of their home and personal property in Denver,
Colorado. Smith is filing this Petition for a Writ of Certiorari
_ . individually and in his capacity as the
representative of Hook’s Estate (No. 60PR-21-1290C06D14) in the Circuit Court of Pulaski County,
Arkansas. Hook died in Pulaski County on April 27, 2021.
2

r-1

Recusal. The panel denied Hook’s request to refer her Request for Panel Recusal to
Chief Judge Tymkovich for review and decision; ordered her “to pay all filing and
docketing fees for this appeal within fourteen (14) days of the Order”; and stated
that “if she fails to pay as ordered, the Clerk of the Court is ordered to dismiss this
appeal.”
On April 12, 2021, after Hook had paid all fifing and docketing fees as
ordered by the panel by borrowing the money from her sister, the panel issued its
Order and Judgment dismissing Hook’s appeal as a sanction for fifing an alleged
frivolous appeal.
REASONS FOR GRANTING THE PETITION
Judge Moore lacked statutory jurisdiction or authority to issue his March 2,
2020 Order Confirming Judicial Sale. In his April 5, 2019 Order of Foreclosure and
Judicial Sale, Judge Moore said that he had statutory jurisdiction or authority to
foreclose on and sell Smith and Hook’s home and personal property under 28 U.S.C.
§§ 2001 & 2002. However, these general statutes authorizing a federal judge to sell
property did not give Judge Moore the authority to foreclose on and sell Smith and
Hook’s home and personal property without following 26 U.S.C. § 7403 and the
other procedures in the Internal Revenue Code (Title 26, United States Code) for
tax lien foreclosures and sales of property. See also 28 U.S.C. §§ 3202 & 3203 of the
Federal Debt Collection Procedure (28 U.S.C. § 3001 et seq.) applicable in Civil
Action No. 14-CV-00955-RM. 28 U.S.C. §§ 2001 & 2002 certainly did not authorize
Judge Moore to evict Smith and Hook from their home, under threat of being

4

arrested by the United States Marshal and/or being held in contempt of court by
Judge Moore if they did not obey his order to vacate their home within 15 days after
entry of his April 5, 2019 Order of Foreclosure and Judicial Sale; or to seize and
detain their personal property; or to sell their home and personal property as a
means of collecting for LNV and the United States of America the damages,
attorney’s fees and costs of more than $2,239,000.00 awarded by Judge Moore to
LNV and the United States of America against Smith and Hook personally in his
April 5, 2019 Final Judgment and Order in Civil Action No. 14-cv-00955-RM.
In its April 12, 2021 Order and Judgment, the Tenth Circuit panel did not
decide Hook’s appeal on the merits by deciding the following issues raised and
argued by Hook on appeal:
A.
Whether Judge Moore lacked statutory jurisdiction or
authority to issue his March 2, 2020 Order Confirming Judicial Sale;
B.
Whether Judge Moore’s March 2, 2020 Order Confirming
Judicial Sale constituted a determination of the personal liability of
Hook and Smith with respect to their alleged debts to LNV and the
United States discharged in their Chapter 7 bankruptcy case,
rendering Judge Moore’s March 2, 2020 Order Confirming Judicial
Sale void under 11 U.S.C. § 524(a)(1);
C.
Whether Judge Moore’s March 2, 2020 Order Confirming
Judicial Sale constituted an unlawful judicial taking of Hook and
Smith’s home and personal property without Fifth Amendment due
process of law or just compensation (i.efair market value at the time
of taking), in violation of the Takings Clause of the Fifth Amendment
to the Constitution of the United States; and,
D.
Whether Judge Moore abused his discretion, committed
reversible error, violated federal statutes, and/or violated the Due
Process Clause of the Fifth Amendment to the Constitution of the
United States by issuing his March 2, 2020 Order Confirming Judicial
Sale.
5

Instead of deciding Hook’s appeal on the merits by deciding these issues, the
Tenth Circuit panel dismissed Hook’s appeal as a sanction for filing an alleged
frivolous appeal. The Tenth Circuit panel said:
Ms. Hook previously appealed from the judgment in the
underlying foreclosure case. See LNV Corp. v. Hook (Hook I), 807 F.
App’x 893 (10th Cir), cert, denied, 141 Sup. Ct. 939 (2020). Hook 1
described Ms. Hook’s arguments challenging the judgment as “wholly
frivolous.” Id. at 895. “As an attorney, she should have known that
they lacked any merit before she argued them; and in large part, the
appellees’ briefs make that perfectly clear. We see no need to further
educate Hook.” Id. Accordingly, this Court dismissed her appeal in
Hook I. See id.
Ms. Hook’s opening brief largely reiterates the “wholly
frivolous” arguments she offered in Hook I. But given the law of the
case doctrine, we will not revisit those arguments. See Brokers'
Choice of Am.., Inc. v. NBC Universal, Inc., 861 F.3d 1081, 1099 (10th
Cir. 2017) (“When a court decides upon a rule of law, that decision
should continue to govern the same issues in subsequent stages in the
same case. An appellate court decision on a particular issue . . .
governs the issue during all later stages of the litigation in the district
and thereafter on any further appeal.” (citations and internal
quotation marks omitted)). There are exceptions to the doctrine, see
id., but none applies here. And Ms. Hook’s request that this panel
vacate and set aside Hook I disregards well-established law that one
panel cannot overrule the decision of another panel, absent
intervening en banc or Supreme Court authority. See Strain v.
Regalado, 977 F.3d 984, 993 (10th Cir. 2020).
This was a serious misapplication of the law of the case doctrine. In the first
place, the issues in Hook I and Hook II were not the same. The issues in Hook I
were:
Whether Judge Moore has been proceeding without or in
A.
excess of his jurisdiction in this case since the United States of
America removed this case from the Denver District Court to the
United States District Court for the District of Colorado on April 3,
2014;

6

Whether Judge Moore’s Final Judgment and Orders in
B.
this case were void under United Student Aid Funds Inc. v. Espinosa,
559 U.S. 260, 130 S. Ct. 1367, 176 L. Ed. 2d 158 (2010);
Whether Judge Moore’s Final Judgment and Orders in
C.
this case were void under 11 U.S.C. § 524(a)(1); and,
Whether Judge Moore abused his discretion, committed
D.
reversible error and/or violated Fifth Amendment due process of law
by refusing to acknowledge or permit Hook and Smith to litigate
willful and malicious statutory violations of the automatic stay, the
discharge order and the discharge injunction by the United States of
America, LNV and their counsel by arbitrarily denying Hook and
Smith’s motion to supplement/amend their Proposed Pre-Trial Order
in this case.
The issues in Hook I involved Judge Moore’s final judgments, orders and actions in
Civil Action No. 14-cv-00955-RM from April 3, 2014, when the United States of
America removed the case from the Denver District Court to the United States
District Court for the District of Colorado, to the date of Hook’s filing of her Notice
of Appeal for Tenth Circuit Case No. 19-1131 on April 10, 2019; whereas the issues
in Hook II involved Judge Moore’s final judgments, orders and actions in Civil
Action No. 14-cv-00955-RM from the date of Hook’s filing of her Notice of Appeal for
Tenth Circuit Case No. 19-1131 on April 10, 2019 to March 2, 2020, when Judge
Moore issued his final Order Confirming Judicial Sale [of Smith and Hook s home
and personal property]. Therefore, the issues in the two appeals were not the same
and the law of the case doctrine was inapplicable on the issue of whether Hook’s
appeal in Hook II was frivolous. Furthermore, Hook’s appeal in Hook II was not
frivolous under any possible definition of that term that would not be void for

7

vagueness and/or overbreadth under the Due Process Clause of the Fifth
Amendment to the Constitution of the United States.
In the second place, the Hook II panel statement that “[tjhere are exceptions
to the [law of the case] doctrine . . . but none applies here” was clearly wrong. In
her reply briefs in Hook II, Hook cited Grigsby v. Barnhart, 294 F.3d 1215 (Footnote
4) (10th Cir. 2002) recognizing “three ‘exceptionally narrow’ reasons to depart from
the law of the case,” including “when the decision was clearly erroneous and would
work a manifest injustice”—which was true with respect to the Hook I panel
decision.
Specifically, the Hook I panel2 did not decide Hook’s appeal on the merits by
deciding the issues raised and argued by Hook on appeal. Instead, the Hook I panel
dismissed Hook’s appeal as a sanction for filing an alleged frivolous appeal.
However, Hook’s appeal in Hook I was not frivolous under any possible definition of
that term that would not be void for vagueness and/or overbreadth under the Due
Process Clause of the Fifth Amendment to the Constitution of the United States.
The Hook I panel did not provide any constitutionally sufficient definition or
standard being used to decide whether Hook’s appeal was frivolous. Furthermore,
Hook’s appeal in Hook I involved constitutional, statutory, procedural and
jurisdictional issues of first impression requiring application of the following
Supreme Court precedent to the facts of the case to render a decision on the merits:
United Student Aid Funds Inc. v. Espinosa, 559 U.S. 260, 130 S. Ct. 1367, 176 L.

2The Hook I panel was composed of Tenth Circuit Judges Briscoe, Lucero and Hartz.
8

t«

Ed. 2d 158 (2010). Since this was not done by the Hook I panel, Hook’s appeal was
not decided on the merits, and the Hook I panel decision was clearly erroneous.
In addition, the Hook I panel decision worked a manifest injustice because it
arbitrarily deprived Hook of her right to appeal and receive meaningful appellate
review under 28 U.S.C. § 1291, and arbitrarily deprived her of her First
Amendment right to access to the courts and her Fifth Amendment right to due
process of law; created the appearance of extreme judicial hostility to and bias
against Hook, in violation of her Fifth Amendment due process right to a fair and
impartial appellate panel on appeal; damaged or destroyed Hook’s personal and
professional reputations (Hook was a well-respected attorney before the Tenth
Circuit imposed these harsh and unjustified sanctions against her), and opened her
up to attorney disciplinary proceedings by courts and bar authorities, further
chilling her First Amendment right to access to the courts and her Fifth
Amendment right to due process of law; and sanctioned the unlawful judicial taking
of Smith and Hook’s home and personal property and their substantial equity
therein without due process of law or just compensation (ii.e., fair market value at
the time of taking), in violation of the Due Process Clause and the Takings Clause
of the Fifth Amendment to the Constitution of the United States.
The Hook II panel said:
The few assertions in the opening brief that may be relevant to
the Order Confirming Judicial Sale are inadequately briefed. See
Fuerschbach v. Sw. Airlines Co., 439 F.3d 1197, 1209-10 (10th Cir.
2006) (collecting authorities holding that inadequately briefed and
underdeveloped theories are waived). Ms. Hook’s conclusory
assertions of procedural error fail to sufficiently identify or argue any
9

J

»

;r

violations. She criticizes the district court for not holding a hearing
before it issued the Order Confirming Judicial Sale, but she does not
show that she was entitled to such a hearing, or even that she
requested one. And she makes no argument for plain error. See
Richison v. Ernest Grp., Inc., 634 F.3d 1123, 1131 (10th Cir. 2011)
(“[T]he failure to argue for plain error and its application on appeal. .
. surely marks the end of the road for an argument for reversal not
first presented to the district court.”)
This statement is false. In her opening brief, Hook argued that Judge Moore merely
rubber-stamped the United States Marshal’s sale of Hook and Smith’s home and
personal property and distributed $1,514,914.80 from the sale to LNV without
holding a Fifth Amendment due process hearing or making any findings “in respect
to the interests of the parties and the United States,” as required by 26 U.S.C. §
7403(c); argued that Judge Moore failed or refused to follow the procedures set forth
in 28 U.S.C. §§ 7403, 3202, & 3203 (including the requirement for a hearing)
applicable in Civil Action No. 14-CV-00955-RM; and argued that if Judge Moore had
taken Hook’s Affirmative Defenses and Compulsory Counterclaims against LNV
and the United States of America into consideration, she and Smith would not have
owed $1,514,914.80 or any amount to LNV and/or the United States of America.
LNV and/or the United States of America would have owed Hook and Smith an
amount to be determined by the jury in the Seventh Amendment jury trial
demanded by them in their verified pleadings in Civil Action No. 14-cv-00955-RM.
These and the other arguments in Hook’s opening brief involved constitutional,
statutory, procedural and jurisdictional issues of first impression requiring
application of the following Supreme Court precedent to the facts of the case to
render a decision on the merits:

Stop the Beach Renourishment v. Florida
10

* r

Department of Environmental Protection, 560 U.S. 702, 130 S. Ct. 2592, 177 L. Ed.
2d 184 (2010) and Knick v. Township of Scott, 588 U.S.

139 S. Ct. 2162, 204 L.

Ed. 2d 558 (2019). Since this was not done by the Hook II panel, Hook’s appeal was
not decided on the merits, and the Hook II panel decision was clearly erroneous.
Furthermore, Hook’s opening brief was not “inadequate” or frivolous, and she did
not need to argue for “plain error and its application on appeal.”
In her reply brief to the United States of America, Hook said:
In addition, Judge Moore was required to hold the Seventh
Amendment jury trial demanded by Hook and Smith in their verified
pleadings in Civil Action No. 14-cv-00955-RM. See also 28 U.S.C. §
2402 providing for a jury trial in “any action against the United
States under section 1346(a)(1).” Hook’s affirmative defenses and
compulsory counterclaims against the United States in Civil Action
No. 14-cv-00955-RM were brought under 28 U.S.C. § 1346(a)(1).
At one point, Judge Moore set the case for a Seventh Amendment jury trial but he
later arbitrarily vacated the setting without giving any reasons for doing so. Smith
and Hook’s Affirmative Defenses and Compulsory Counterclaims against the
United States of America and LNV were not frivolous as previously found by Judge
Moore.
On April 20, 2019, at 11:59 p.m. MDT, Smith and Hook (aged 74 and 72 at
the time) vacated their home of 25 years in Denver, Colorado, leaving the key in the
mailbox for Duncan E. Barber (the attorney for LNV) and/or the United States
Marshal, as ordered by Judge Moore in his April 5, 2019 Order of Foreclosure and
Judicial Sale. Smith and Hook were unable to remove all their personal property
from their home due to their financial circumstances and the shortness of time (15

11

days) to comply with Judge Moore's April 5, 2019 Order of Foreclosure and Judicial
Sale. The status of the “Judicial Sale” of Smith and Hook’s home and personal
property was unknown to them at that time.
In issuing his March 2, 2020 Order Confirming Judicial Sale, Judge Moore
failed or refused to follow 26 U.S.C. § 7403(c), providing as follows:
(c) Adjudication and Decree
The court shall, after the parties have been duly notified of the action,
proceed to adjudicate all matters therein and finally determine the
merits of all claims to and liens upon the property, and, in all cases,
where a claim or interest of the United States therein is established,
may decree a sale of such property, by the proper officer of the court,
and a distribution of the proceeds of such sale according to the
findings of the court in respect to the interests of the parties and the
United States. If the property is sold to satisfy a first lien held by the
United States, the United States may bid at the sale such sum, not
exceeding the amount of such lien with expenses of sale, as the
Secretary directs.
Judge Moore failed or refused to “adjudicate all matters therein and finally
determine the merits of all claims to and liens upon the property.” In fact, Judge
Moore merely rubber-stamped the United States Marshal’s sale of Smith and
Hook’s home and personal property and distributed $1,514,914.80 from the sale to
LNV without holding a Fifth Amendment due process hearing or making any
findings “in respect to the interests of the parties and the United States,” as
required by 26 U.S.C. § 7403(c). As a consequence of this rubber-stamp process,
Judge Moore failed or refused to make any finding or determination of the total
amount of his April 5, 2019 Final Judgment and Order in favor of LNV and the
United States of America, leaving Hook and Smith without a clue as to which
12

*

alleged debts to the United States of America and LNV had been collected and/or
satisfied, and unjustly opening them up to further attempted collections by LNV
and the United States of America. Furthermore, Judge Moore failed or refused to
acknowledge that his March 2, 2021 Order Confirming Judicial Sale constituted a
determination of the personal liability of Smith and Hook with respect to their
alleged debts to the United States of America and LNV discharged in their Chapter
7 bankruptcy case,3 rendering his March 2, 2021 Order Confirming Judicial Sale
void under 11 U.S.C. § 524(a)(1):
(a) A discharge in a case under this title—(1) voids any judgment
any time obtained, to the extent that such judgment is
determination of the personal liability of the debtor with respect
any debt discharged under section 727, 944, 1141, 1192, 1228,
1328.

at
a
to
or

Judge Moore failed or refused to set off amounts owed by LNV to Smith and
Hook against the $1,514,914.80 distributed to LNV from the sale to LNV of their
home and personal property. Judge Moore failed or refused to determine the fair
market value of Smith and Hook’s home and personal property4 or the amounts
owed by LNV to Smith and Hook based on the Affirmative Defenses and
Compulsory Counterclaims pled by Smith and Hook against LNV in Civil Action
No. 14-CV-00955-RM.

If Judge Moore had taken these Affirmative Defenses and

3Appendix F, Order of Discharge, In re: David Lee Smith & Mary Julia Hook, Case No.1716354-TBM (D. Colo. Chap. 7 Bankr.) (November 8, 2017).
4The $1,514,914.80 distributed to LNV from the sale was the amount of LNVs “credit bid” to
purchase Smith and Hook’s home and personal property, not the fair market value of their home and
personal property. This unauthorized use of a “credit bid” as a substitute for determining the fair
market value of Smith and Hook’s home and personal property as the basis for the sale constituted a
fraud upon Smith and Hook, resulting in a theft of their home and personal property and their
substantial equity therein.
13

Compulsory Counterclaims into consideration, Smith and Hook would not have
owed $1,514,914.80 or any amount to LNV. LNV would have owed Smith and Hook
an amount to be determined by the jury in the Seventh Amendment jury trial
demanded by them in Civil Action No. 14-cv-00955-RM.
Judge Moore failed or refused to determine the amounts owed by the United
States of America to Smith and Hook based on the Affirmative Defenses and
Compulsory Counterclaims pled by Smith and Hook against the United States of
America in Civil Action No. 14-cv-00955-RM. If Judge Moore had taken these
Affirmative Defenses and Compulsory Counterclaims into consideration, Smith and
Hook would not have owed any amount to the United States of America.

The

United States of America would have owed Smith and Hook an amount to be
determined by the jury in the Seventh Amendment jury trial demanded by them in
Civil Action No. 14-CV-00955-RM.
Judge Moore failed or refused to distribute to Smith and Hook the amount of
their homestead and personal property exemptions under 26 U.S.C. § 6334, 11
U.S.C. § 522, and Colo. Rev. Stat. §§ 13-54-102 & 38-41-201 et seq. In fact, Judge
Moore failed or refused to acknowledge that Smith and Hook’s home and personal
property were part of the bankruptcy estate in their Chapter 7 bankruptcy case (No.
17-16354-TBN, District of Colorado) or that Smith and Hook were entitled to
homestead and personal property exemptions in the distribution of proceeds from
the sale of their home and personal property in Civil Action No. 14-cv-00955-RM.
Smith and Hook were thus deprived of their right to receive the amount of their

14

=.

homestead and personal property exemptions in the distribution of proceeds to
provide the “fresh start” after bankruptcy intended by Congress in enacting the
United States Bankruptcy Code (Title 11, United States Code).
Judge Moore failed or refused to lift or remove the federal tax liens on their
home so they could qualify for a reverse mortgage on their home under 15 U.S.C. §
1648. Smith and Hook challenged the validity and amounts of these federal tax
liens in the Affirmative Defenses and Compulsory Counterclaims pled by them
against the United States of America in Civil Action No. 14-CV-00955-RM. Judge
Moore failed or refused to acknowledge that Smith and Hook could qualify for a
reverse mortgage on their home if he lifted or removed the federal tax liens on their
home. Smith and Hook were thus deprived of their right to qualify for a reverse
mortgage on their home.
Judge Moore failed or refused to follow the procedures set forth in 28 U.S.C.
§§ 3202 & 3203.

These procedures are part of the Federal Debt Collection

Procedure (28 U.S.C. § 3001 et seq.) applicable in Civil Action No. 14-cv-00955-RM.
As Hook argued in her briefs on appeal, Judge Moore lacked statutory
jurisdiction or authority to issue his March 2, 2020 Order Confirming Judicial Sale.
In addition to being void under 11 U.S.C. § 524(a)(1), Judge Moore’s March 2, 2020
Order Confirming Judicial Sale constituted an unlawful judicial taking of Hook and
Smith’s home and personal property without Fifth Amendment due process of law
or just compensation (i.e., fair market value at the time of taking), in violation of the
Takings Clause of the Fifth Amendment to the Constitution of the United States.

15

See Stop the Beach Renourishment v. Florida Department of Environmental
Protection, 560 U.S. 702, 130 S. Ct. 2592, 177 L. Ed. 2d 184 (2010); Knick v.
Township of Scott, 588 U.S. __ , 139 S. Ct. 2162, 204 L. Ed. 2d 558 (2019).
Therefore, Judge Moore abused his discretion, committed reversible error, violated
federal statutes, and/or violated the Due Process Clause of the Fifth Amendment to
the Constitution of the United States by issuing his March 2, 2020 Order
Confirming Judicial Sale.
CONCLUSION
Based on the foregoing, the United States Court of Appeals for the Tenth
Circuit has so far departed from the accepted and usual course of judicial
proceedings, or sanctioned such a departure by United States District Judge
Raymond P. Moore, as to call for an exercise of the Supreme Court’s supervisory
power under Supreme Court Rule 10(a). Specifically, the Tenth Circuit has grossly
abused its inherent power (and its power under Fed. R. App. P. 38) by imposing the
sanction of appeal dismissal against Hook based on its false and defamatory finding
that Hook’s appeal was frivolous,

This harsh and unjustified sanction has

arbitrarily deprived Hook of her right to appeal and receive meaningful appellate
review under 28 U.S.C. § 1291, and has arbitrarily deprived Hook of her First
Amendment right to access to the courts and her Fifth Amendment right to due
process of law; has created the appearance of extreme judicial hostility to and bias
against Hook, in violation of her Fifth Amendment due process right to a fair and
impartial appellate panel on appeal; has damaged or destroyed Hook’s personal and

16

professional reputations, and unjustly opened her up to attorney disciplinary
proceedings by courts and bar authorities, further chilling her First Amendment
right to access to the courts and her Fifth Amendment right to due process of law;
and has sanctioned the unlawful judicial taking of Smith and Hook’s home and
personal property and their substantial equity therein without due process of law or
just compensation (i.e., fair market value at the time of taking), in violation of the
Due Process Clause and the Takings Clause of the Fifth Amendment to the
Constitution of the United States. For these reasons, Smith respectfully requests
the Supreme Court to grant his Petition for a Writ of Certiorari, and to grant such
other and further legal and equitable relief as may be just under the circumstances,
including an order vacating, setting aside, or reversing the Tenth Circuit panel’s
April 12, 2021 Order and Judgment under 28 U.S.C. § 2106 providing for such
relief.
Respectfully submitted,

David Lee Smith, Pro Se Petitioner
12071 Paul Eells Drive, #204
North Little Rock/Maumelle, Arkansas 72113
501.725.9087
davidlsl024@aol.com

17

